                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A-05070044                                                                          Page 1 of1



                                                           l
         We received an allegation that an NSF proposal submitted by the PI (the subject) and three co-
         PIs contained a modest amount of plagiarized text taken from several source documents. An
         Investigation Committee (the Committee) of the subject's Institution determined that the subject
         was solely responsible for the plagiarized text in the NSF proposal. It concluded that the subject
         committed research misconduct. The Institution's adjudicator initially proposed termination of
         the subject's employment. However, following the subject's appeal, the adjudicator suspended
         the subject for one year, placing him on administrative leave of absence during that time at half-
         pay. Further, although the subject was free to continue his research, he was not pennitted to
         teach in the classroom for the year.

         OIG concluded that the evidence supports a finding of research misconduct against the subject.
         We recommended that NSF's Deputy Director send the subject a letter of reprimand informing
         him that NSF has made a finding of research misconduct against him and require the subject to
         certify that proposals he submits to NSF do not contain plagiarized, falsified, or fabricated
         material for 1 year after the issuance of a letter of reprimand by NSF. NSF's adjudicator sent the
         subject a letter of reprimand and required the subject to certify that proposals he submits to NSF
         do not contain plagiarized, falsified, or fabricated material for 1 year after the issuance of a letter
         of reprimand by NSF. The attached report ofiilVestigation and the Deputy Director's letter to the
         subject detail NSF's actions regarding this matter.

         This case is closed and no further action will be taken.




         I NSF p r o p o s a l _ , entitled
         _ , " was submitted    the                                                                 (the
                    with                                                         all faculty members at •




NSF OIG Fonn 2 (11/02)
     '.   -.
..
\
,                                                  NATIONAL SCIENCE FOUNDA1"ION
                                                       4201 WILSON BOUL~VARD
                                                      ARLINGTON, VIRGINIA 22230


                                                            NOV J 2 2006

                     OFFICE OF THE
                    DEPUTY DIRECTOR




               CERTIFIED MAIL -RETURN RECEIPT REQUESTED




                       Re: Notice of Misconduct in Science Determination -

               Dear'Mr.


                                On or about December 17, 2003, your client; ~:~~::=
                 .,.,.".....""., to the National Science Foundation (''NSF'') entitled
                                                                     As documented in the attached fuvestigative
               . Report prepared by NSF's Office offuspector General ("OIG"), the proposal contained
                 plagiarized text.

               Scientific Misconduct and Proposed Sanctions.

                       Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
               or plagiari/?m in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
               defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
               without giving appropriate credit:' 45 CPR § 689.1(a)(3). A finding of research misconduct
               requires that:

                       (1) There be a significant departure from accepted practices of the relevant research
                       . community; and

                       (2) The research misconduct be commjtted intentionally, orknowingly, or recklessly; and

                       (3) The allegation be proven by a preponderance of evidence.

                45 CPR § 689.2(c).
                                                                                                        l
                                                                                             Page 2
       . _proposal contains verbatim and paraphrased text from several source. .
  documents. By submitting a proposal to NSF that copies the ideas or words of another without
. adequate attribution,as described in the OiG Investigative Report,~isfepresented
  someone else's work as his own. In addition_failed to properly acknowledge or credit
  the authors of the source documents in his proposal. His conduct unquestionably constitutes
  plagiarism. I therefore conclude that_actions meet the definition of "research
  misconduct" set forth in NSF's regulations.                                   . .

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report and the University Committee Report, NSF has determined
that, based on a preponderance of the evidence, _plagiarism was committed knowingly
 and constituted a significant departure from accepted practices oftherelevant research
 cominunity. I am, therefore, issuing a finding of research misconduct against_
                 .                                               .                                .
           NSF's regulations establish thi:ee categories of actions (Group I, H, and Ill) that can be
  taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
 .a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
. requiring that an institution or individual obtain special prior approval of particular activities
  from NSF; and requiring that an institutional representative certify as to the accuracy of reports
  or certifications of compliance with particular requirements. 45 CFR §689.3(a)(1). Group H
  actions include award suspension or restrictions on d~signated activities or expenditures;.
  requiring special reviews of requests for funding; and requiring correction to the research record.
  45 CFR §689.3(a)(2). Group ill actions include suspension or termination o(awards;
  prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
  suspension rrom participation in NSF programs. 45 CFR § 689.3(a)(3).

         In determining the severity ofthe sanction to impose for research misconduct, I have
 considered the seriousness of the misconduct; our determination that it was knowing; the
 determination that it was an isolated event and not part of a pattern; ~illingness to
 accept responsibility for his actions; and the contrition that he demonstrated during the course of
 the investigative process. I have also considered other relevant circumstances.· 45CFR § 689.3
 (b).

         Based on the foregoing, I am requiring that, ~submits.a proposal to NSF from
 the date of this letter until November 15; 2007, he must provide written certification to the OIG
 from his employer that his proposal does not contain plagiarized, falsified, or fabricated material.
 The certification must also assure NSF that the proposal adheres to the rules of proper
 scholarship and .attribution as required by the NSF Proposal Guide. Such certification should be
 sent to the Office of InspeCtor General, 4201 Wilson Boulevard, Arlington, Virginia 22230.
                                                                                           Page 3
Procedures Governing Appeals

       Under NSF's regulations, your client has30 days after receipt of this letter to submit an
appeal of this decision, in writing, to the Director of the Foundation. 45 CFR §689.l0(a). Any
appeal should be addressed to the Director at the National Science Foundation, 4201 Wilson.
Boulevard, Arlington, Virginia 22230. Ifwe do not receive your client's appeal within the 30-
day period, this decision will become final. For your information, we are attaching a copy of the
applicable regulations. If you have any questions about the foregoing, please call
Assistant General Counsel, at (703) 292-8060.


                                                    Sincerely,


                                                  ~IO~
                                                    Kathie Olsen
                                                    Deputy Director

Enclosures
- Investigative Report
- 45 C.F.R. 689
 CbNFIDENTIAL                                                                                       CbNFIDENTIAL


                                                       Summary

 The Office of Inspector General (OIG) concludes that the subject l committed plagiarism in an NSF
 proposal submitted to the National Science Foundation (NSF). An Investigation Committee (the
 Committee) ofthe subject's Institution concluded that the subject committed research misconduct.
 The Institution's adjudicator accepted the Committee's findings and conclusions, but did not
 accept the Committee's recommended actions. Instead, the adjudicator proposed the subject's
 termination on August 31, 2006.

 OIG concludes that the evidence supports a finding of research misconduct, and recommends that
 NSF:

              •    send a letter of reprimand to the subject informing him that NSF has made a finding
                   of research misconduct;

                   and

              •    require the subject to certify that proposals he submits to NSF do not contain
                   plagiarized, falsified, or fabricated material for 1 year after the issuance of a letter
                   of reprimand by NSF.

                                                    GIG's InqUiry

  We reviewed the NSF proposa1 2 submitted by the PI (the subject) and three co-PIs. 3 We
. determined that the proposal appeared to contain at least 30 lines of text and 10 references copied
  from three separate source documents. We wrote to the subject and the three co-PIs on the
  proposal concerning the seemingly cOpied material. Our letters to the subject and co-PIs with
  attachments are included in Tab 1. The individual responses are included in Tab 2.

 In the subject's response, he admitted he copied the material. He explained that he "naively,,4
 thought that using material from a newspaper (Source Document A, Tab 1, A) instead of a science
 article was not plagiarism. With respect to Source Documents Band C (Tab 1, B and C), he stated
 these "were unintentional mistakes."s According to the subject, the co-PIs were unaware of the
 copied materials. The co-PIs' responses (Tab 2) confirmed that they did not write the text that
 contained the allegedly copied text.




 2



              all
 3 At the inquiry phase,           co-PIs on the proposal as well as the PI were considered to be possible subjects.
    However, as a result of our inquiry, we determined the focus of the investigation should be on the PI (the subject)
    as the individual most reasonably responsible for the alleged plagiarism.
 4 August 10, 2005, response, Tab 2, Question 2 response, page 1.
 5 Ibid.




                                                           1
CbNFIDENTIAL                                                                                     CbNFIDENTIAL


After reviewing the responses from the subject and the co-PIs, we determined that there was
sufficient substance to warrant an investigation. We referred the investigation to the subject's
Institution (Tab 3),6 .

                                           Institution's Investigation

The Conunittee's Investigation Report (the Report) is attached as Tab 4. During its review, the
Committee compared the alleged copied text with the source documents. The Committee also
interviewed the subject with his attorney present. The Report contains a list of documents and
other relevant evidence it used during the investigation. Based on the evidence, the Conunittee
concluded that in addition to verbatim copied text in the proposal taken from three separate source
documents, the subject "substantially paraphrased,,7 text taken from source document A, without
appropriate citation. 8

The Conunittee found by a preponderance of the evidence that the subject significantly departed
from accepted practice at the Institution as well as in the wider research community. It concluded
that he acted knowingly and intentionally and, therefore, committed research misconduct. 9 The
subject's attorney rebutted some of the Committee's determinations, which the Committee
addressed in the final version of its Report. IO              .


The Committee recommended the subject: 1) receive a letter of censure; 2) be prohibited from
proposal submissions for funding for not more than 1 year; 3) be supervised for not more than 3
years with certification by the Institution's Research Integrity Officer that proposals andlor papers
submitted contained no plagiarized materials; and 4) send letters of apology for his plagiarism to
NSF and to the Institution's adjudicator.

The Institution's adjudicator endorsed the findings and the conclusion in the Committee's Report,
but rejected the recommendations presented by the Committee. In lieu ofthe Committee's
reconunendations, the adjudicator chose to implement a more stringent action when he proposed to
terminate the subject's employment at the Institution (Tab 4).

                                                GIG's Assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:




6 Our referral letter was directed to • • • • • • • • • • • • • • • • • • • • • • • •
7 The Report, Tab 4, page 6.
8 The focus on the paraphrased text occurred primarily in the Committee's interview of the subject. Specifically,
one Committee member discusses material apparently taken from source document A and used in the                 He
states "When I look at the section, the introductory section, that makes reference to the
[source document A], I'm overwhelmed I guess by how much of that article is there. There were I think eight
entries that NSF had underlined. But I found more that weren't underlined." Tab 4, Report, Appendix F, page 23.
Subsequently, the same committee member states "But it really reads as though there is a lot more than just a few
sentences that were there from the article." Tab 4, Report, Appendix F, page 23.
9 See Report, Tab 4, pages 7-8.
10 See Report, Tab 4, footnotes I (pages 7-8), 2 (page 9), and 3 (page 9).




                                                         2
CONFIDENTIAL                                                                        CONFIDENTIAL


           (1) There be a significant departure from accepted practices of the relevant research
           community; and (2) The research misconduct be committed intentionally, or knowingly, or
           recklessly; and (3) the allegation be proven by a preponderance of the evidence.l ll ]

We accept the Institution's Report as accurate and complete. The Institution followed reasonable
procedures. We, therefore, accept the Report in lieu of our own investigation.

                                                      The Act

The Committee concluded the preponderance of the evidence showed that the subject did, in fact,
inappropriately copy text from multiple sources into his NSF proposal. We concur with the
Committee's assessment. Our inquiry estimated the amount of copied text at approximately 30
lines of text and 10 references. Further, the Committee identified additional very closely
paraphrased text taken from source document A in the subject's proposal without any citation. 12



The Institution concluded that the subject knowingly and intentionally copied text into his NSF
proposal. We agree with the Committee assessment. The subject, in his rebuttal, claimed that his
actions were reckless. However, the Committee, in its finalized Report emphatically described
why it concluded the subject acted knowingly and intentionally. 13

                                                  Standard of Proof

A finding of research misconduct requires proofby a preponderance of evidence. We concur with
the Committee's conclusion that the preponderance of the evidence showed that the subject
committed plagiarism. We believe the preponderance of the evidence indicates that the subject
copied text into his proposal without appropriately distinguishing this text from his own work. In
addition, the preponderance of the evidence indicates that the subject copied references into his
proposal exactly as they were presented in the source documents with the text he copied,
suggesting that he used these references to develop the text, which he did not. This is supported by
the fact that none ofthese references was used in any other section ofthe subject's proposal. In
copying both text and references, the subject significantly departed from the accepted practice of
the scientific community. Since the preponderance of evidence supports the conclusion that the
subject acted knowingly when he copied these materials, we conclude the subject committed
plagiarism and therefore committed Research Misconduct.

                           Subject's Response to GIG's Draft Investigation Report

We sent a copy of the draft Investigation Report to the subject's attorney for comment. The
attorney's response is at Tab 5. As a result of his response, we have made it clear in this report
that the Institution has only proposed termination, but that this matter is still pending an
administrative hearing at the Institution.

1145    CFR § 689.2(c).
12   See footnote 8.
13   See Report, Tab 4, footnote 1 (pages 7-8).


                                                        3
CONFIDENTIAL                                                                           CONFIDENTIAL




                                    DIG's Recommended Disposition

In deciding what actions are appropriate when making a finding of research misconduct, NSF must
consider several factors. These factors include how serious the misconduct was; whether it was an
isolated event or part of a pattern; its impact on the research record; and other relevant·
circumstances. 14
                                              Seriousness

As noted above, the preponderance of evidence supports the conclusion that the subject acted
knowingly when he copied verbatim materials into his proposal, a significant departure from the
accepted practice in the research community. Plagiarism strikes at the heart of research integrity
and is an unacceptable practice within the research community. Although the amount of
plagiarized text was modest, it was substantive. Further, the embedded references that were copied
along with some of the plagiarized text, enhances the seriousness. Therefore, the level of
misconduct is serious.

                                            Mitigating Factors

The subject admitted from the outset of our inquiry that he had copied these materials. He
cooperated fully with OIG's inquiry and the Institution's investigation and appeared to provide
honest answers to questions posed to him throughout the process.

                                      Impact on the research record

There is no impact on the research record as a result of the plagiarism in the proposal submitted to
NSF.

                                             Recommendation

Based on the evidence, OIG recommends that NSF:

               •   send a letter of reprimand to the subject infonning him that NSF has made a finding
                   of research misconduct;

                   and

               •   require the subject to certify to NSF's OIG that proposals he submits to NSF for 1
                   year from the date of NSF's letter of reprimand do not contain plagiarized, falsified,
                   or fabricated material.




14   45 CFR § 689.3(b).


                                                    4
